Department of Homeland Security
   Ofﬁce of Inspector General


        Customs and Border Protection Award Fees 

         for Enforcement Equipment Maintenance 

          and Field Operations Support Contract





OIG-09-18                                    February 2009
                                                                     Office of Inspector General

                                                                     U.S. Department of Homeland Security
                                                                     Washington, DC 20528




                                   February 11, 2009

                                        Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

Our report addresses the award fees that Customs and Border Protection paid to Chenega
Technology Services Corporation for enforcement equipment maintenance and field
operations support. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office and have been discussed in draft with those responsible for implementation. It is
our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all those who contributed to the preparation
of this report.




                                        Richard L. Skinner 

                                        Inspector General 

Table of Contents


Executive Summary .............................................................................................................1

Background ..........................................................................................................................2 

Results of Audit ...................................................................................................................4 

     Cost-Plus Contract Type ................................................................................................5 

     Award Fees ....................................................................................................................6

     Performance-based and Alpha Contracting Training and Experience.........................11 

Conclusions........................................................................................................................13 

Recommendations..............................................................................................................13

Management Comments and OIG Analysis ......................................................................14 

Appendix A: Purpose, Scope, and Methodology.............................................................17 

Appendix B: Management Comments to the Draft Report .............................................19 

Appendix C: Request from Senator Hillary Rodham Clinton.........................................23 

Appendix D: Award Fee Determination Process.............................................................25 

Appendix E: Schematic of Award Fee Process...............................................................26 

Appendix F: Award Fee Percentage Paid, by Performance Requirement and Period....27 

Appendix G: Cumulative Award Fees Paid, by Performance Requirement, Through 

   September 2007 ...........................................................................................................29 

Appendix H: Major Contributors to This Report ............................................................34 

Appendix I: Report Distribution ....................................................................................35 




Abbreviations
AFRB                  Award Fee Review Board
CBP                   U.S. Customs and Border Protection
Chenega               Chenega Technology Services Corporation
DHS                   Department of Homeland Security
FAR                   Federal Acquisition Regulation
OIG                   Office of Inspector General
QA                    quality assurance
QASP                  Quality Assurance Surveillance Plan
OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                Senator Hillary Rodham Clinton requested that we review the
                effectiveness of the Department of Homeland Security’s award fee
                process as it relates to successful acquisition outcomes. This
                report addresses the award fees that U.S. Customs and Border
                Protection paid to Chenega Technology Services Corporation for
                enforcement equipment maintenance and field operations support.
                Our objectives were to determine whether (1) the selected contract
                type was suitable; (2) Customs and Border Protection paid award
                fees based on contractor excellence; and (3) Customs and Border
                Protection had adequate expertise to develop a performance-based
                contract with expedited negotiating procedures. Through
                September 2007, Customs and Border Protection paid the
                contractor more than $8 million in award fees.

                Cost-plus-award-fee is an improper contract type for fulfilling
                enforcement equipment maintenance and field operations support
                needs. The performance standards for earning awards fees were
                not designed to motivate excellence in acquisition outcomes, that
                is, to achieve or exceed cost, schedule, and technical performance
                objectives. Agency staff who developed, awarded, and
                implemented the contract had limited training and experience with
                expedited negotiations and performance-based contracts such as
                this one.

                Customs and Border Protection did not receive the full benefit of
                using the cost-plus-award-fee contract type and missed an
                opportunity to meet or exceed cost, schedule, and performance
                objectives for enforcement equipment maintenance and field
                operations support. To its credit, Customs and Border Protection
                has redesigned some of this contract’s award criteria so that they
                are more likely to motivate excellence. Implementing our
                recommendations will improve this and future procurements.




                 CBP Award Fees for Enforcement Equipment 

               Maintenance and Field Operations Support Contract 


                                    Page 1 

Background
                        On November 26, 2007, Senator Hillary Rodham Clinton
                        requested that we conduct a broad review to determine the
                        effectiveness of the Department of Homeland Security’s (DHS)
                        award fee process as it relates to federal guidelines and successful
                        acquisition outcomes (appendix C). Senator Clinton cited a
                        number of reports about DHS awarding fee payments to
                        contractors regardless of their performance. She also referred to
                        our October 2007 report on Customs and Border Protection (CBP)
                        contract award and oversight issues with the enforcement
                        equipment maintenance and field operations support contract.1 As
                        a follow-on to our October 2007 report, this report presents the
                        results of our audit of award fees CBP paid to Chenega
                        Technology Services Corporation (Chenega) under the
                        enforcement equipment maintenance and field operations support
                        contract. Appendix A provides the purpose, scope, and
                        methodology for our audit.

                        On September 11, 2003, CBP awarded Chenega a sole-source
                        contract to maintain enforcement technology equipment. This
                        equipment includes metal detectors, x ray machines, and explosive
                        trace detectors throughout land border crossings, commercial
                        airports, and seaports. CBP sought a prime integration contractor
                        to replace the roughly 20 small business contractors that had been
                        providing this service. Through this contract, CBP outsourced
                        most of its enforcement equipment maintenance, repair, logistics
                        management, property management, and field operations support
                        needs. The contract also included staffing and operating a 24­
                        hours-per- day, 7-days-per-week operations center and training
                        customs officers to operate the enforcement equipment. The
                        contract was for a 1-year base period and 9 option years, with an
                        estimated value of $475 million if CBP exercised all options. CBP
                        negotiated this contract using alpha contracting practices, a
                        framework for expediting the acquisition process in which the
                        government develops the contract statement of objectives
                        collaboratively with the selected vendor.

                        This contract has a cost-plus-award-fee structure, which federal
                        regulations define as follows:
                                A cost-reimbursement contract that provides for a
                                fee consisting of (1) a base amount fixed at inception

1
  DHS OIG, Customs and Border Protection Award and Oversight of Alaska Native Corporation Contract
for Enforcement Equipment Maintenance and Field Operations Support, OIG-08-10, October 2007.
                          CBP Award Fees for Enforcement Equipment 

                       Maintenance and Field Operations Support Contract 


                                              Page 2 

                                    of the contract and (2) an award amount that the
                                    contractor [might] earn in whole or in part during
                                    performance and that is sufficient to provide
                                    motivation for excellence in such areas as quality,
                                    timeliness, technical ingenuity, and cost-effective
                                    management.2

                            The base amount, also known as fixed fee, is a guaranteed 3% of
                            estimated contract costs. The award amount, also referred to as
                            the award fee pool, is worth up to 6% of estimated contract costs.

                            CBP’s Quality Assurance Surveillance Plan (QASP) is the basis
                            for CBP to determine what percentage of the award fee pool the
                            contractor will earn. The QASP defines what the contractor must
                            do to satisfy the contract’s statement of objectives and how often
                            CBP will monitor and document performance. The QASP enables
                            CBP’s quality assurance manager and its contracted performance
                            evaluation team to evaluate the contractor systematically.
                            Appendix D depicts CBP’s performance monitoring and award fee
                            determination process for this contract.

                            According to the QASP, for each performance period, which lasts
                            about 6 months, CBP evaluates the contractor on about 20
                            performance requirements, which CBP adjusts occasionally. Each
                            requirement has an associated weight that determines the
                            percentage of the award fee pool available for the requirement.
                            Some weights change during the life of the contract, depending on
                            agency circumstances and priorities.

                            For each performance period, CBP’s Award Fee Review Board
                            (board) develops a fee recommendation based on the performance
                            monitoring results and consideration of subjective factors that
                            might have influenced the contractor’s performance. The board
                            scores the contractor between 0% and 100% for each requirement
                            and presents the recommendation to CBP’s Enforcement
                            Technology Program director, the fee-determining official for this
                            contract. Appendix E is a schematic of the award fee process,
                            which includes the following example.

                            For the seventh performance period (October 2006 through March
                            2007), the award fee pool was more than $1.7 million. The
                            performance requirement training customs officers had a weight of
                            10% in this period. CBP scored the contractor’s training customs

2
    Federal Acquisition Regulation (FAR), § 16.405-2(a) Cost-Plus Award-Fee Contracts.
                               CBP Award Fees for Enforcement Equipment 

                           Maintenance and Field Operations Support Contract 


                                                  Page 3 

               officers performance at 100%. Consequently, CBP paid the
               contractor $176,750 as an award fee for training customs officers
               in the 7th performance period, as calculated below.

                                                  Performance
                 7th Period                       Requirement                                  Award Fee
               Award Fee Pool                       Weight                Rating                 Paid
                    $1.7 million          X           10%         X       100%         =       $176,750

               Through September 29, 2007, CBP paid the contractor almost
               $8.1 million (88%) of the $9.2 million available in award fees
               (table 1). Appendix G lists the cumulative award dollars paid by
               performance requirement through September 2007. CBP paid
               between 79% and 94% of the maximum available award fee for
               each of the 8 performance periods. Appendix F lists percentages
               the contractor earned for each requirement in each period.

               Table 1: Award Fees Paid By Performance Period, 2003 to 2007
                                                              Award Fees
                             Performance Period                                                   Paid as
                                                                                   Maximum
                                                                   Paid                        Percentage
                                                                                   Available   of Maximum
                   1st   Sept. 11, 2003 to Mar. 11, 2004        $ 764,724      $ 811,378           94
               2nd       Mar. 12, 2004 to Sept. 10, 2004        $ 658,028      $ 811,378           81
                    rd
               3         Sept. 11, 2004 to Mar. 11, 2005        $ 749,808      $ 839,607           89
               4th       Mar. 12, 2005 to Sept. 11, 2005        $ 660,701      $ 839,607           79
                    th
               5         Sept. 12, 2005 to Mar. 11, 2006        $ 946,388      $1,028,236          92
                    th
               6         Mar. 12, 2006 to Sept. 30, 2006        $1,155,630     $1,347,697          86
                    th
               7         Oct. 1, 2006 to Mar. 31, 2007          $1,646,829     $1,767,503          93
                    th
               8         Apr. 1, 2007 to Sept. 29, 2007         $1,504,244     $1,767,503          85
               TOTAL Award Fees Paid                            $8,086,352     $9,212,909          88
                   Source: OIG analysis of agency data.



Results of Audit
               Cost-plus-award-fee was an improper contract type for fulfilling
               CBP’s enforcement equipment maintenance and field operations
               support requirements. CBP did not conduct the cost-benefit
               analysis required before selecting this contract type.

               Also, the performance standards for earning awards fees on the
               enforcement equipment maintenance and field operations support
               contract were not designed to motivate excellence in acquisition
                CBP Award Fees for Enforcement Equipment
              Maintenance and Field Operations Support Contract

                                              Page 4
                          outcomes, that is, to achieve or exceed cost, schedule, and
                          technical performance objectives. About 20% of awards CBP paid
                          did not relate to cost, schedule, and technical performance
                          outcomes. Most of the other 80% of awards related to compliance-
                          based standards, rather than a level of quality. In addition, the
                          standards did not give an incentive for the contractor to improve
                          and innovate over time. Supporting documentation for some
                          awards was incomplete, missing, or insufficient to justify the
                          performance score.

                          Agency staff who developed, awarded, and implemented the
                          contract had limited training and experience with expedited
                          negotiations and performance-based contracts such as this one.

                          CBP did not benefit from using the award fee contract type and
                          missed an opportunity to meet or exceed cost, schedule, and
                          performance objectives for enforcement equipment maintenance
                          and field operations.

        Cost-Plus Contract Type
                          A cost-plus-award-fee was a prohibited contract type for fulfilling
                          CBP’s enforcement equipment maintenance and field operations
                          support requirements.3 In addition, CBP did not conduct the
                          required cost-benefit analysis before selecting the contract type.
                          We do not know CBP’s rationale for selecting this contract type
                          because the agency could not provide required documentation
                          related to its pre-award decisions, and the individuals who made
                          the decision are no longer with CBP’s contracting office.

                          Federal regulations provide that agencies shall use firm-fixed-price
                          contracts when requirements are well defined; goods and services
                          are commercial in nature; and the procurement creates minimal
                          cost, schedule, and performance risk to the government.4 Use of
                          any other contract type is not permitted in such circumstances.
                          Moreover, federal regulations provide in part that a cost-plus­
                          award-fee contract is suitable when “it is neither feasible nor
                          effective to devise predetermined objective incentive targets
                          applicable to cost, technical performance, or schedule.”5

                          A firm-fixed-price contract, rather than a cost-plus contract, is well
                          suited to CBP’s enforcement equipment maintenance and field
3
  FAR, §§12.207 Contract type (2003); 16.301-3, Limitations; and 2.101, Definitions.

4
  FAR, §§ 12.207, Contract type (2003); 16.202-2, Application. 

5
  FAR, § 16.405-2(b)(1)(i), Cost-Plus-Award-Fee Contracts. 

                             CBP Award Fees for Enforcement Equipment 

                         Maintenance and Field Operations Support Contract 


                                                 Page 5 

                         operations support needs.6 The goods and services CBP procured
                         in this contract are generally commercial, including maintenance,
                         repair, and training. Moreover, CBP used this contract to combine
                         the efforts of several previous contractors. Consequently, before
                         contract award, CBP had historical data on the costs, schedules,
                         and risks associated with procuring these goods and services. CBP
                         could have used this information to devise objective cost, schedule,
                         and performance incentive targets and, as a result, successfully use
                         a firm-fixed-price contract type.

                         According to federal regulations, an agency should conduct a cost-
                         benefit analysis to ensure that the benefits of a cost-plus-award-fee
                         contract offset the additional oversight and management burden.7
                         As appendix D demonstrates, performance monitoring and award
                         fee determination can be administratively complex and detailed.
                         One federal agency, in its report on cost-plus-award-fee contracts
                         best practices, notes that the value added to a program by using an
                         award fee-type contract must be greater than the costs to
                         administer it.8 A recent Office of Management and Budget
                         memorandum reinforced this requirement by directing contracting
                         officers to conduct risk and cost-benefit analyses when
                         determining whether to use award fee contracts.9 Contracting
                         officers should prepare the analyses in writing and obtain higher
                         level approval before awarding such a contract.

                         CBP could not provide documentation related to its pre-award
                         decisions. Federal regulations require that contract files include
                         documentation on why the agency selected the particular contract
                         type.10 However, the only documentation CBP had available—
                         June 17, 2004, meeting notes—indicates that the vendor (Chenega)
                         suggested that the cost-plus-award-fee contract was the “right fit.”
                         These notes also state that it “took time for CBP to understand and
                         adopt the cost-plus-award-fee contract type,” without elaboration.

        Award Fees
                         The performance standards for earning awards fees were not
                         designed to motivate excellence in acquisition outcomes. About
                         20% of award fees CBP paid did not relate to cost, schedule, or

6
  FAR, §§ 12.207 Contract type (2003); 16.202-2 Application; 16.301-3, Limitations.

7
  FAR, §16.405-2(b)(1)(iii) and (c)(2), Cost-Plus-Award-Fee Contracts. 

8
  National Aeronautics and Space Administration, Award Fee Contracting Guide, June 27, 2001. 

9
  Office of Management and Budget, Appropriate Use of Incentive Contracts, Memorandum for Chief

Acquisition Officers and Senior Procurement Executives, December 4, 2007. 

10
   FAR, §16.103(d), Negotiating Contract Type. 

                             CBP Award Fees for Enforcement Equipment 

                         Maintenance and Field Operations Support Contract 


                                               Page 6 

      technical performance outcomes. In addition, the performance
      standards for most of the other 80% of awards were compliance
      based, rather than based on a level of quality. The standards did
      not give an incentive for the contractor to improve and innovate
      over time. In addition, supporting documentation for some awards
      was incomplete, missing, or insufficient to justify the performance
      score.

Cost, Schedule, and Technical Performance

      About $1.6 million (20%) of the award fees CBP paid did not
      relate to measures of acquisition outcomes, shown as “Other” in
      Table 2. For example, the contractor earned award fees for
      responding to government requests for ad hoc reports, which CBP
      scored for completeness, timeliness, and accuracy. About $6.4
      million (80%) of the $8.1 million in award fees related to cost,
      schedule, and technical performance outcomes, including
      $3.9 million (48.3%) for requirements related to technical
      performance. Almost $2.0 million (about 25%) of award fees CBP
      paid related to schedule outcomes, and $516,521 (about 6.4%)
      related to cost.

      Table 2: Award Fees Related to Acquisition Outcomes
                                                      Award Fees Paid
                   Outcome                                      Percentage of
                                                  Dollars
                                                                    Total
      Technical Performance                      3,905,998          48.3
      Schedule                                   1,985,835          24.6
      Cost                                         516,521           6.4
      Technical Performance and Schedule            79,109           1.0
      Other                                      1,598,946          19.8
        CBP Rounding Error                             (58)
        TOTAL                                    8,086,351         100.0
      Source: OIG analysis of agency data.


Compliance-Based Standards

      The bases for most awards—the performance standards—
      measured compliance, rather than a level of excellence. That is,
      the contractor either complied or did not comply with a
      performance standard. Linking award fees to a level of quality
      would meet more closely the regulatory intent that award fees
      should motivate excellence. The evaluations CBP conducted

       CBP Award Fees for Enforcement Equipment 

     Maintenance and Field Operations Support Contract 


                                 Page 7 

 according to the QASP were insufficient to assess excellence
 (appendix G).

 For example, CBP paid the contractor $687,535 in award fees
 (8.5% of award fees paid through September 2007) for providing
 monthly contract performance ($351,953) and logistics
 performance ($335,582) reports. Specifically, the contractor
 reported monthly to CBP on the average cost for providing training
 and preventative and corrective maintenance applicable to
 specified types of equipment. The contractor also compared the
 current month’s performance to that of previous months in the
 performance period. If CBP determined that the reports were
 timely and 99% error free, the contractor earned a high score and
 most or all of this requirement’s award fee.

 For another performance requirement, inspecting newly procured
 hand-held enforcement technology equipment, CBP paid the
 contractor $375,089 in award fees (4.6% of award fees paid
 through September 2007). To earn high scores, the contractor
 documented its inspection of 100% of the previous month’s new
 handheld enforcement equipment.

 Other examples of the compliance orientation of the performance
 standards include CBP’s paying the contractor $568,107 in award
 fees (7.0% of award fees paid through September 2007) for
 responding to government requests for ad hoc reports. CBP also
 paid the contractor $470,840 (5.8% of award fees paid through
 September 2007) for reporting on discussions of day-to-day
 management functions and the status of accomplishing contract
 requirements.

 The one partial exception to the compliance orientation was the
 performance standard for customer wait time improvement, a
 component of the customer wait time performance requirement.
 This standard requires the contractor to demonstrate a qualitative
 improvement in order to earn an award fee. CBP paid $236,101
 (2.9% of award fees paid through September 2007) to the
 contractor for reducing wait times 5% in each performance period.

 The award fees generally did not give the contractor an incentive
 to improve and innovate over time. Some performance standards
 did not challenge the contractor, and the contractor consistently
 received the highest possible scores for compliance. According to
 the best practices report, the government may unilaterally revise its
 contractor evaluation plan as priorities change and may adjust
  CBP Award Fees for Enforcement Equipment 

Maintenance and Field Operations Support Contract 


                     Page 8 

                          evaluation weights to redirect contractor emphasis to areas needing
                          improvement.11

                          For this contract, CBP gave the contractor an outstanding score
                          (between 95% and 100%) on approximately one-fourth of the
                          performance requirements in almost all rating periods
                          (appendix F). On 3 of 22 performance requirements (inspection of
                          newly procured hand-held enforcement technology, inspection of
                          repaired hand-held enforcement technology, and customer wait
                          time improvement), the contractor achieved outstanding scores in
                          all periods rated. For another two performance requirements, the
                          contractor received the highest scores in 5 of 7 periods for training
                          instructor evaluations, and 6 of 7 periods for ISO12
                          implementation. In the most recent 4 performance periods, the
                          contractor scored less than 50% on 1 out of 75 scores.

                          As of December 1, 2007, CBP began implementing a significantly
                          revised QASP. The first performance period under the new QASP
                          concluded on March 30, 2008. As of May 2008, CBP had not
                          completed the award fee determination for this performance
                          period. The new QASP includes performance standards and
                          evaluation criteria for 7 of 19 requirements that CBP believes will
                          measure whether the contractor exceeded compliance-level
                          performance. CBP removed from the new version some of the
                          examples cited above that were not designed to motivate
                          excellence. However, the new QASP retains some compliance-
                          based standards. CBP should continue improving the QASP until
                          all standards are designed to motivate excellence in acquisition
                          outcomes.

                 Award Fee Justification and Documentation

                          CBP did not justify paying some award fees to its contractor.
                          Some documentation did not demonstrate that the contractor met
                          the performance standard; other documentation was incomplete or
                          missing.

                          In each performance period, CBP took an award action for each of
                          the performance requirements, leading to 154 award actions for the
                          first 8 performance periods. Our sample for detailed review
                          consisted of the 12 actions worth more than $100,000 each.13

11
   National Aeronautics and Space Administration, Award Fee Contracting Guide, June 27, 2001. 

12
   International Standards Organization standards for good business practices.

13
   After we completed our fieldwork, CBP awarded the contractor an additional four actions worth more 

than $100,000 each. We did not include these in our sample. 

                             CBP Award Fees for Enforcement Equipment 

                          Maintenance and Field Operations Support Contract 


                                                 Page 9 

 These sample actions, about 8% of all award actions, total almost
 $1.6 million and represent about 19% of the award fees CBP paid
 the contractor through September 2007.

 CBP’s internal audit documentation was complete for 9 of the 12
 actions in our sample (Table 3). Documentation consisted of
 CBP’s audit evaluation forms and the supporting documentation
 for each month of the rating period. This documentation
 adequately justified seven actions based on the standards in place
 at the time.

 Table 3: Justification for Sample Award Actions
                                             Sample Award Actions
               Documentation                                 Percentage
                                        Number    Dollars
                                                              of Dollars
 Complete and Justifies Award             7           929,126    60.0
 Complete but Does Not Justify Award      2           281,033    18.0
 Incomplete                               1           111,589     7.0
 Not Available                            2           237,328    15.0
      TOTAL Sample                       12        1,559,076    100.0
 Source: OIG analysis of agency data.


 The documentation for two actions does not justify CBP’s awards.
 First, the customer wait time rating was inflated. Evaluators
 credited the contractor for timely responses on some equipment
 maintenance requests but did not reduce the contractor’s
 performance rating for untimely responses on similar requests.
 Second, CBP paid 89% of the fees available for the managerial
 functions requirement, although the performance monitors reported
 that the contractor provided the required reports either late or not at
 all. CBP’s board did not document any additional details to
 indicate that the contractor performed satisfactorily on this
 requirement.

 We could not determine whether 3 of the 12 actions in our sample
 worth more than $348,000 (22%) were justified. Documentation
 for 3 months of activity was missing for the relocated equipment
 action. The oldest two actions in our sample had no supporting
 documentation. Because CBP could not provide us with
 supporting documentation, we do not know whether the award fees
 paid were justified.




  CBP Award Fees for Enforcement Equipment 

Maintenance and Field Operations Support Contract 


                            Page 10 

Performance-based and Alpha Contracting Training and
Experience
           Staff who developed the contract had limited training and
           experience with alpha contracting and performance-based
           contracts, some CBP officials told us. Consequently, the effort had
           higher acquisition risk than necessary, and the acquisition was less
           likely to meet or exceed cost, schedule, and performance
           objectives and provide the best value to the government.

           CBP used alpha contracting practices to award the cost-plus­
           award-fee contract. These practices emphasize concurrent
           processing and a close relationship between the government and
           the vendor. The contractor benefits significantly from reduced
           proposal preparation costs. Because alpha contracting is a
           negotiation, the government needs experienced staff to protect the
           public interest during the process.

           CBP’s lack of experience in this area raises concerns as to whether
           the agency had adequate control of the alpha contracting
           proceedings. Meeting notes from June 17, 2004, indicate that the
           vendor (Chenega) suggested the alpha contracting. According to
           one CBP official involved in this contract award process, none of
           the government negotiators had specialized alpha contracting
           training or experience before this procurement. This official did
           not know whether CBP documented the alpha contracting sessions.

           Instead of using a detailed statement of work or performance work
           statement, CBP awarded this contract with a statement of
           objectives: “ . . . the [contractor] shall be responsible for
           [1] enforcement technology that is mission capable and available
           to the CBP officers, and [2] training competent, confident, and
           effective equipment operators throughout the lifetime of the
           enforcement equipment.” This lack of detail might have
           contributed to the QASP deficiencies we identified in providing
           the basis for award fees that motivate excellent contractor
           performance. CBP’s July 30, 2004, risk analysis of the contract
           noted that the lack of a statement of work “casts an appearance of a
           significant lack of accountability for [Chenega] expenditures.”

           Performance-based contracting is more complex than traditional
           procurement approaches. Successful performance-based
           contracting requires more effort and smarter processes to
           administer and oversee. “Developing an approach to measuring
           and managing performance is a complex process . . . as important
            CBP Award Fees for Enforcement Equipment
          Maintenance and Field Operations Support Contract

                              Page 11
                         as developing the Statement of Work or the Statement of
                         Objectives,” according to federal interagency guidance.14

                         The CBP official responsible for developing performance
                         standards for this contract took one general performance-based
                         contracting course and received no training specific to managing
                         cost-plus-award-fee contracts. She told us that she gained much of
                         her experience through on-the-job training and that lack of time
                         was the main reason she had no additional training. This official
                         was the only individual in the program office who had received
                         performance-based contracting training.

                         According to the Office of Management and Budget, “Effective
                         training is crucial to the successful implementation of
                         [performance-based contracting] . . . Agency acquisition workforce
                         policy should include these [performance-based contracting]
                         training requirements at the appropriate level for all members of
                         the acquisition workforce.”15 In addition, according to interagency
                         guidance, performance-based contracting teams “Are not a
                         ‘training ground.’ They’re a field of operation for . . . people who
                         are among the best in their fields and have a grounding in, or have
                         been trained[,] in acquisition.”16

                         Performance evaluators for this contract told us that they needed
                         more training, in part to eliminate the contractor personnel’s
                         perception that the evaluators were not familiar enough with the
                         equipment subject to evaluation. One performance evaluator told
                         us, “It is usually expected that new evaluators have already had
                         training regarding quality assurance; however, this is usually not
                         the case.”

                         Choosing a performance-based contract negotiated through alpha
                         contracting significantly increased CBP’s acquisition risk
                         compared to a traditional contract structure and award process.
                         CBP should develop policies and procedures that specify
                         circumstances that warrant alpha contracting. If CBP wants to use
                         alpha contracting again, it should increase the level of specialized
                         training for its staff. As noted above, performance-based
                         contracting also requires training.

14
   Interagency Guidance Document, Seven Steps to Performance-Based Services Acquisition, 

http://acquisition.gov/comp/seven_steps/index.html. 

15
   Office of Management and Budget, Memorandum from Paul Dennett, Administrator, Office of Federal

Procurement Policy, to Chief Acquisition Officers and Senior Procurement Executives, May 22, 2007. 

16
   Interagency Guidance Document, Seven Steps to Performance-Based Services Acquisition, 

http://acquisition.gov/comp/seven_steps/index.html.

                             CBP Award Fees for Enforcement Equipment 

                          Maintenance and Field Operations Support Contract 


                                               Page 12 

Conclusions
               Fixed-priced contracts generally provide the lowest cost risk to the
               government. Because CBP, with untrained and inexperienced
               staff, chose to negotiate a cost-plus-award-fee contract with alpha
               contracting, it increased the level of risk and reduced the likelihood
               that the procurement would provide the best value. Moreover,
               basing award fees on standards with a compliance, rather than
               quality, orientation meant that CBP did not receive the full benefit
               of using a cost-plus-award-fee contract. CBP implementation of
               our recommendations will increase the likelihood that it will
               improve the cost-effectiveness of this and future procurements.


Recommendations
               We recommend that the Commissioner:

               Recommendation #1: Determine whether exercising option years
               on the current cost-plus-award-fee contract will provide the best
               value for enforcement equipment maintenance and field operations
               support, and if not, develop and implement a new acquisition
               strategy to procure these services.

               Recommendation #2: Revise the QASP for this contract
               to ensure that award fees are designed to motivate
               excellence in acquisition outcomes.

               Recommendation #3: Establish and implement policies and
               procedures that specify the appropriate circumstances for

                       a) Cost-plus-award-fee contracts and ensure that
                          performance requirements motivate excellence
                          and successful acquisition outcomes.

                       b) Alpha contracting and ensure that staff
                          adequately document related discussions,
                          negotiations, and outcomes.

               Recommendation #4: Develop internal controls to ensure that
               official contract files contain adequate documentation by
               performance requirement to justify award fees paid.


                CBP Award Fees for Enforcement Equipment 

              Maintenance and Field Operations Support Contract 


                                   Page 13 

          Recommendation #5: Provide additional training to employees
          responsible for conducting quality assurance activities on the
          enforcement equipment maintenance and field operations support
          contract.

Management Comments and OIG Analysis
          The CBP Director, Office of Policy and Planning, provided written
          comments on our draft report. In general, CBP concurred with
          four of the recommendations and partially concurred with
          recommendation #3. In addition, CBP provided technical
          comments on some areas in the report. We reviewed the technical
          comments and incorporated the changes into the final report, as
          appropriate.

          CBP concurred with recommendation #1, to determine whether
          exercising option years on the current contract will provide the best
          value. CBP completed a best-value analysis, dated July 15, 2008,
          which showed that Chenega was providing the best value for
          enforcement equipment maintenance and field operations support.
          CBP made its final determination to continue with the current
          contractor on August 19, 2008, based on this analysis. CBP’s July
          2008 analysis did not include an evaluation of the contract type:
          cost-plus-award-fee versus other contract types. CBP disagreed
          that the cost-plus-award fee was an improper contract type. CBP
          provided an explanation where a fixed price contract would not
          address CBP responsibilities. However, this explanation does not
          justify CBP’s use of a prohibited contract type. We believe CBP
          should perform a complete analysis, including a legal review, to
          determine the proper contract type. We consider this
          recommendation to be unresolved and request CBP provide
          additional information.

          CBP concurred with recommendation #2, to revise the QASP to
          make sure that award fees are designed to motivate excellence in
          acquisition outcomes. CBP commented that it has worked to
          improve the metrics and surveillance measures in the QASP and is
          revising the plan to include performance-based metrics, designed
          to continuously improve performance throughout the life of the
          contract. CBP’s target date for completion of the revised plan is
          March 31, 2009. We consider this recommendation resolved, but
          it will remain open until CBP provides us documentation on the
          revised QASP.



           CBP Award Fees for Enforcement Equipment 

         Maintenance and Field Operations Support Contract 


                              Page 14 

 CBP partially concurred with recommendation #3, to
 establish and implement policies and procedures that
 specify the appropriate circumstances for using cost-plus­
 award-fee contracts and alpha contracting. In its response
 to recommendation #3a, CBP refers to its continuing
 reliance on current laws and procedure, specifically,
 Federal Acquisition Regulation Part 16.405-2, Cost-Plus-
 Award Fee Contracts, and Homeland Acquisition Manual
 3016.4, Types of Contracts, as its justification for not
 establishing internal policies. While we agree that any
 organization within DHS should rely on these documents to
 support contract decisions, our recommendation was
 designed to go beyond the current prescribed regulatory
 requirements to more specific local guidance.

 CBP concurred with recommendation #3b, stating that it
 would establish standard operating procedures to address
 using alpha contracting and formally documenting related
 discussions, negotiations, and outcomes. CBP’s target date
 for completing the standards is March 31, 2009. This
 recommendation will remain open until CBP provides us
 with standard operating procedures that specify the
 appropriate circumstances for using cost-plus contracts,
 performance requirements, and alpha contracting.

 CBP concurred with recommendation #4, to develop internal
 controls to make sure official contract files contain adequate
 documentation to support the award fees paid for each
 performance requirement. CBP stated that its Enforcement
 Technology Office added an additional review of the Award Fee
 Review Board decisions and quality assurance documentation to
 justify and support award fees it paid. CBP stated that it would
 incorporate these changes into its standing operating procedures by
 December 31, 2008. We consider this recommendation resolved
 but open until CBP provides us with documentation that supports
 the implementation of these additional internal controls.

 CBP concurred with recommendation #5, to provide additional
 training to its employees responsible for conducting quality
 assurance activities on the enforcement equipment maintenance
 and field operations support contract. CBP noted that many of the
 Office of Information Technology managers, including four
 current managers, are now project management certified. CBP
 provided documentation that showed enforcement technology
 personnel had completed a course on managing performance-based
  CBP Award Fees for Enforcement Equipment 

Maintenance and Field Operations Support Contract 


                     Page 15 

 service awards. Additional classes in quality assurance and
 performance metrics will be scheduled for employees, and CBP is
 researching the availability of technical training on equipment
 inventory management for its quality assurance personnel. We
 believe these steps satisfy the intent of the recommendation, which
 we consider resolved and closed.




  CBP Award Fees for Enforcement Equipment 

Maintenance and Field Operations Support Contract 


                     Page 16 

Appendix A
Purpose, Scope, and Methodology


                   Our objectives were to determine whether (1) the selected contract
                   type was suitable; (2) Customs and Border Protection paid award
                   fees based on contractor excellence; and (3) Customs and Border
                   Protection had adequate expertise to develop a performance-based
                   contract with expedited negotiating procedures.

                   This audit was limited in scope to address Senator Clinton’s
                   concerns specific to CBP’s contract with Chenega. We conducted
                   audit fieldwork at CBP’s Procurement Directorate in Washington,
                   DC, and the office of the contracting officer’s technical
                   representative in Lorton, VA.

                   To determine whether CBP implemented effective processes and
                   mechanisms to administer these award fees, we reviewed
                   applicable laws, regulations, policies, and procedures. We
                   interviewed personnel at CBP’s Enforcement Technology Program
                   center in Lorton, VA. Interviewees included those responsible for
                   the administration of this contract and those who conduct field
                   audits to evaluate the contractor’s performance. We reviewed
                   CBP’s policies and procedures regarding the award fee
                   determination process.

                   In addition, we reviewed the Inspector General’s prior audit report
                   on CBP’s award and oversight of the enforcement equipment
                   maintenance and field operations support contract, and other
                   reports related to award fees.

                   We used the following criteria:
                   •	 Public Law 110-28, Section 3502, May 25, 2007
                   •	 Federal Acquisition Regulation Definitions of Words and
                      Terms (Part 2); Special Requirements for the Acquisition of
                      Commercial Items (Part 12); and Types of Contracts (Part 16)
                   •	 Office of Management and Budget Memorandum: Appropriate
                      Use of Incentive Contracts, December 4, 2007
                   •	 Contract TC-03-036 / HSBP1004C00193
                   •	 Homeland Security Acquisition Regulations and Manual
                   •	 Other federal best practices, including those of the National
                      Aeronautics and Space Administration and the U.S. Air Force.

                   To determine whether CBP conducted effective oversight of the
                   contractor’s performance, we analyzed 12 of the 154 transactions
                   linked to performance requirements individually valued at more
                   than $100,000. The fees awarded in these 12 transactions
                   represent more than 19% of the total award fees paid for
                    CBP Award Fees for Enforcement Equipment
                  Maintenance and Field Operations Support Contract

                                      Page 17
Appendix A
Purpose, Scope, and Methodology


                   performance through September 2007. We did not review the four
                   transactions valued at more than $100,000 for contractor
                   performance between April and September 2007, because CBP did
                   not finalize the award fee determination for this performance
                   period until after we completed our audit fieldwork.

                   We conducted this performance audit between January and
                   February 2008 under the authority of the Inspector General Act of
                   1978, as amended, and according to generally accepted
                   government auditing standards. Those standards require that we
                   plan and perform the audit to obtain sufficient, appropriate
                   evidence to provide a reasonable basis for our findings and
                   conclusions based on our audit objectives. We believe that the
                   evidence obtained provides a reasonable basis for our findings and
                   conclusions based on our audit objectives.




                    CBP Award Fees for Enforcement Equipment 

                  Maintenance and Field Operations Support Contract 


                                       Page 18 

Appendix B
Management Comments to the Draft Report




                   CBP Award Fees for Enforcement Equipment 

                 Maintenance and Field Operations Support Contract 


                                      Page 19 

Appendix B
Management Comments to the Draft Report




                   CBP Award Fees for Enforcement Equipment 

                 Maintenance and Field Operations Support Contract 


                                      Page 20 

Appendix B
Management Comments to the Draft Report




                   CBP Award Fees for Enforcement Equipment 

                 Maintenance and Field Operations Support Contract 


                                      Page 21 

Appendix B
Management Comments to the Draft Report




                   CBP Award Fees for Enforcement Equipment 

                 Maintenance and Field Operations Support Contract 


                                      Page 22 

Appendix C
Request from Senator Hillary Rodham Clinton




                    CBP Award Fees for Enforcement Equipment 

                  Maintenance and Field Operations Support Contract 


                                       Page 23 

Appendix C 

Request from Senator Hillary Rodham Clinton (continued) 





                    CBP Award Fees for Enforcement Equipment 

                  Maintenance and Field Operations Support Contract 


                                       Page 24 

Appendix D
Award Fee Determination Process


                     Quality assurance (QA) manager and
                     performance monitors perform monthly audits
                     using Quality Assurance Surveillance Plan.



                     QA manager analyzes inputs from audits.



                     QA manager computes semiannual numeric rating
                     and provides numeric rating to performance
                     coordinator.


                     Performance coordinator uses the rating table to
                     determine the award fee percentage.



                     Each Award Fee Review Board (AFRB) voting
                     member reviews the numeric rating and either
                     concurs or nonconcurs with the recommended
                     award fee percentage.



                     AFRB chairperson reviews recommendation and
                     arrives at a resolution.



                     AFRB chairperson prepares cover letter for award
                     fee recommendation to award fee determining
                     official.


                     Award fee determining official makes final fee
                     determination and notifies contracting officer.



                     Contracting officer prepares award fee
                     determining official’s letter to contractor and
                     modifies contract.



                   Source: U.S. Customs and Border Protection




                    CBP Award Fees for Enforcement Equipment
                  Maintenance and Field Operations Support Contract

                                             Page 25
Appendix E
Schematic of Award Fee Process



Source: OIG analysis




                                   CBP Award Fees for Enforcement Equipment
                                                                               





                                 Maintenance and Field Operations Support Contract
                                                                                     





                                                     Page 26
                                                               

Appendix F
Award Fee Percentage Paid, by Performance Requirement and Period


                                                                                          Award Fees Paid
±               Performance Requirement                                  Percentage by Performance Period *
                                                                                                                                 Total Dollars
                                                       8th         th             th      th             th       rd       nd


1    Preventative Maintenance                         75.0       50.0          50.0     50.0            75.0    100.0    100.0     $324,471
2    Corrective Maintenance                          100.07     100.06         85.05    50.04           75.03    75.02   100.0     $395,728
     Inspection of Newly Procured Hand-Held
3                                                     95.0      100.0         100.0    100.0        100.0       100.0    n.a.      $375,089
     Enforcement Technology
     Inspection of Repaired Hand-Held Enforcement
4                                                     99.6      100.0         100.0    100.0        100.0       100.0    n.a.      $379,172
     Technology
5a   Customer Wait Time                               85.0      100.0         100.0     85.0            79.8     50.0    100.0     $489,076
5b   Customer Wait Time Improvement                  100.0      100.0         100.0    100.0            **      100.0    n.a.      $236,101
     Enforcement Technology Changes and
6                                                     n.a.       n.a.         n.a.      n.a.            n.a.     75.0     80.0     $ 65,757
     Modifications
7    Enforcement Technology Equipment Relocation      75.0       75.0          92.0    100.0            88.2    100.0    n.a.      $559,798
8    Operations Center Status Boards                  60.0       92.3          25.0    100.0        100.0        90.3    --0--     $165,864
9    Operations Center Response                       97.6       97.1          97.0    100.0            96.4     94.1     80.0     $228,642
10   Training Customs Officers                       100.0      100.0         100.0    100.0            75.0     98.5     67.0     $791,134
11   Training Instructor Evaluation                   99.2      100.0         100.0    100.0        100.0       100.0     90.0     $251,622
12   Training Student Documentation                  100.0      100.0         100.0    100.0        --0--        n.a.     90.0     $141,798
13   Training Certificates                            n.a.       n.a.          n.a.     n.a.        100.0       100.0     90.0     $ 41,134
14   Management of Subcontractors                     n.a.       n.a.         n.a.      n.a.            n.a.     85.0     75.0     $ 96,537
15   Background Investigation Paperwork               n.a.       n.a.         n.a.      n.a.            n.a.     92.7    --0--     $ 38,909
16   Logistics Performance Reports                    90.0      100.0         100.0     89.0            29.9    100.0    n.a.      $335,582
17   Contract Performance Reports                     85.0       94.0         100.0    100.0            78.6    100.0    n.a.      $351,953
18   Invoices                                         87.0       94.0          55.0    100.0            66.7     84.6     84.0     $435,383

                                                 CBP Award Fees for Enforcement Equipment
                                                                                                





                                               Maintenance and Field Operations Support Contract
                                                                                                    





                                                                    Page 27
                                                                              

Appendix F
Award Fee Percentage Paid, by Performance Requirement and Period


                                                                                                                               Award Fees Paid
    ±                      Performance Requirement                                                     Percentage by Performance Period *
                                                                                                                                                                                       Total Dollars
                                                                             8th               th             th              th              th              rd             nd


19          Managerial Functions                                             n.a.            89.0           62.0            92.0             87.5           75.0            75.0           $470,840
20          Ad Hoc and Monthly Reports                                       50.07         100.06           86.05          100.04            36.83          54.62           75.0           $568,107
21          Quality                                                          75.0          100.0            69.0           100.0          100.0           100.0           100.0            $225,374
22          ISO Implementation                                             100.0           100.0            79.0           100.0          100.0           100.0           100.0            $259,000
23          Response to Training Requests                                    n.a.           n.a.            n.a.            n.a.             n.a.           n.a.          100.0             $40,569
24          Central Training Materials Library                               n.a.           n.a.            n.a.            n.a.             n.a.           n.a.          100.0             $40,569
±       Audit table from quality assurance surveillance plan.
    	




*       8th Period:   Apr. 1, 2007 to     Sept. 29, 2007                 3rd Period: Sept. 11, 2004 to Mar. 11, 2005
        	




         th
            Period:   Oct. 1, 2006 to     Mar. 31, 2007                  2nd Period: Mar. 12, 2004 to Sept. 10, 2004
         th
            Period:   Mar. 12, 2006 to    Sept. 30, 2006
         th
 7          Period:   Sept. 12, 2005 to   Mar. 11, 2006                  CBP did not use the requirements in this table for the 1st performance period, which was a transition from the previous
         th
6           Period:   Mar. 12, 2005 to    Sept. 11, 2005                 contractors to the current contractor.
5** Combined with customer wait time.
    	




4n.a.	 CBP determined that this requirement would not be evaluated for this period.

Source: OIG analysis of agency data.




                                                                   CBP Award Fees for Enforcement Equipment
                                                                                                                                     





                                                                 Maintenance and Field Operations Support Contract
                                                                                                                                         





                                                                                                Page 28
                                                                                                          

Appendix G
Cumulative Award Fees Paid, by Performance Requirement, Through September 2007


                                                               Performance                                                                     Award Fees Paid
                                                                                                                                                     Percentage
     Requirement                               Standard                                         Measure                      Category *    Dollars
                                                                                                                                                      of Total
                                                                                                                                                                Rank

                                                                              Standardized written questions
Training Customs         Not less than 85% of students in each class answer                                                   Technical
Officers                 correctly 80% of the instructor’s questions.
                                                                              administered periodically during the
                                                                                                                             Performance
                                                                                                                                           791,134      9.8      1
                                                                              training session.

Ad Hoc and Monthly       Ad hoc reports as requested by the government are    Unscheduled reports will be provided, as
Reports                  provided timely, accurately, and completely.         required.
                                                                                                                                Other      568,107      7.0      2

                         (a) Disassembled and ready for transport within 3
                         workdays of work start.
                                                                              For standards (a) and (b), database review,
                       (b) Transported anywhere within the continental
                                                                              as needed.
Enforcement Technology United States, excluding Alaska, in not more than 15
Equipment Relocation   workdays.
                                                                                                                              Schedule     559,798      6.9      3
                                                                              For standard (c), customer surveys and field
                                                                              technician report reviews.
                         (c) Assembled, tested, and ready for service at
                         receiving site in not more than 3 workdays after
                         equipment reassembly starts.

                         Not longer than times specified in the contract.     Hourly baseline established for each
Customer Wait Time
                         Improvements meet or exceed expectations.            evaluation period
                                                                                                                              Schedule     489,076      6.0      4

                                                                              Monthly meetings are held to brief costs,
                                                                              schedule, quality and performance,
                         At least 95% of program cost, schedule, and                                                          Technical
Managerial Functions
                         performance objectives are achieved.
                                                                              personnel, customer satisfaction, risk
                                                                                                                             Performance
                                                                                                                                           470,840      5.8      5
                                                                              management and mitigation, and issues and
                                                                              resolution.
                                                                              Monthly and random audits. Monthly
                                                                              audits of cost to repair, cost per hour for
                         Reasonable, accurate, complete, and allocable        preventative maintenance, and technical
Invoices
                         invoices are submitted twice monthly.                training cost per hour for subcontractors
                                                                                                                                Cost       435,383      5.4      6
                                                                              involved in nonintrusive inspection
                                                                              equipment.

                         In accordance with equipment manufacturers’          Database reviews. Customer surveys after        Technical
Corrective Maintenance
                         maintenance requirements.                            maintenance performed.                         Performance
                                                                                                                                           395,728      4.9      7




                                                         CBP Award Fees for Enforcement Equipment
                                                                                                                 





                                                       Maintenance and Field Operations Support Contract
                                                                                                                     





                                                                              Page 29
                                                                                        

Appendix G
Cumulative Award Fees Paid, by Performance Requirement, Through September 2007


                                                             Performance                                                                      Award Fees Paid
                                                                                                                                                    Percentage
     Requirement                              Standard                                             Measure                  Category *    Dollars
                                                                                                                                                     of Total
                                                                                                                                                               Rank

Inspection of Repaired
                                                                                                                             Technical
Hand-Held Enforcement    100% inspection.                                       Monthly reports.
                                                                                                                            Performance
                                                                                                                                          379,172      4.7      8
Technology Equipment

Inspection of Newly
Procured Hand-Held                                                              Quality assurance manager conducts           Technical
Enforcement Technology
                       100% inspection.
                                                                                periodic walk-throughs.                     Performance
                                                                                                                                          375,089      4.6      9
Equipment

                         Contractor establishes contract performance figures,
                         collects and analyzes the data, and reports results
Contract Performance
Reports
                         comparing current month with prior months. Each        Monthly review of records and reports.         Other      351,953      4.4      10
                         report is accurately prepared and presented monthly
                         and not less than 99% error free.

                         Contractor establishes logistics performance figures,
Logistics Performance                                                            Monthly reviews of job code numbers on
Reports
                         analyzes the data, and reports results. Reports are not
                                                                                 work breakdown schedule.
                                                                                                                               Other      335,582      4.1      11
                         less than 99% error free.

Preventative             In accordance with equipment manufacturers’            Database reviews. Customer surveys after
Maintenance              maintenance requirements.                              maintenance performed.
                                                                                                                             Schedule     324,471      4.0      12

                                                                                                                             Technical
ISO Implementation       Schedule is maintained.                                Contractor status reports.
                                                                                                                            Performance
                                                                                                                                          259,000      3.2      13

                         Contracting officer’s technical representative receives
Training Instructor      not more than two valid complaints concerning           Audits and reviews of student evaluation    Technical
Evaluation               quality of contractor and subcontractor’s instruction, sheets.                                     Performance
                                                                                                                                          251,622      3.1      14
                         during two or more classes, during a 1-month period.

                                                                                More than 5% = 100%; 4– 4.99% = 90%;
Customer Wait Time                                                                                                           Technical
Improvement
                         Meets or exceeds expectations.                         3–3.99% = 80%; 2–2.99% = 70%;
                                                                                                                            Performance
                                                                                                                                          236,101      2.9      15
                                                                                1–1.99% = 60%; less than 1% = 40%




                                                        CBP Award Fees for Enforcement Equipment
                                                                                                                 





                                                      Maintenance and Field Operations Support Contract
                                                                                                                     





                                                                                 Page 30
                                                                                           

Appendix G
Cumulative Award Fees Paid, by Performance Requirement, Through September 2007


                                                                 Performance                                                                           Award Fees Paid
                                                                                                                                                             Percentage
     Requirement                                 Standard                                             Measure                        Category *    Dollars
                                                                                                                                                              of Total
                                                                                                                                                                        Rank

                           (a) Not less than 95% of incoming telephone calls are
                           answered by a service desk person.
                                                                                     For standards (a) and (c), monthly reviews
                                                                                     of telephone call and service action records.
Operations Center          (b) 100% of incoming voicemail messages are                                                                Technical
Response                   answered within 24 hours of receipt.                                                                      Performance
                                                                                                                                                   228,642      2.8      16
                                                                                     For standard (b), monthly reviews of
                                                                                     telephone calls.
                           (c) 100% of service action status is called back to the
                           customer.

                           Contractor works with the government quality
                                                                                     Periodic contractor meetings with the            Technical
Quality                    assurance manager to ensure that quality is addressed
                                                                                     government.                                     Performance
                                                                                                                                                   225,374      2.8      17
                           and monitored.

Operations Center Status   Equipment not “fully” operational is displayed on a
Boards                     status board until repaired.
                                                                                     Monthly checks of status board accuracy.         Schedule     165,864      2.1      18

                           Student sign-in sheets are delivered to registrar not
Training Student           more than 10 workdays after class completion or not Review of student sign-in sheets records
Documentation              later than last workday of the month in which training and database entries.
                                                                                                                                        Other      141,798      1.8      19
                           was completed, whichever occurs first.

                           Detailed action plan is provided within 30 days of
                           contract award. Contractor completes transition
Contractor Action Plan                                                               Monthly progress review with contractor
and Transition Plan **
                           within 4 months after contract award. Develops a
                                                                                     management team.
                                                                                                                                      Schedule     121,707      1.5      20
                           plan to improve management and maintenance of the
                           high-technology enforcement equipment.
                                                                                     Monthly management reviews. Monthly
                           Program requirements are understood and met
Management Reviews **
                           through establishment of a program office.
                                                                                     cost, schedule, and status reviews are           Schedule     115,621      1.4      21
                                                                                     initiated. Quarterly progress reviews.

                                                                                     Monitoring of subcontractor performance,
                           Subcontractors work efficiently and effectively
Management of                                                                        such as customer satisfaction, contractor-       Technical
Subcontractors
                           according to contractor-established maintenance,
                                                                                     provided records, phone interviews, site        Performance
                                                                                                                                                    96,537      1.2      22
                           training, and logistics standards, as appropriate.
                                                                                     visits, and invoices.




                                                           CBP Award Fees for Enforcement Equipment
                                                                                                                       





                                                         Maintenance and Field Operations Support Contract
                                                                                                                            





                                                                                     Page 31
                                                                                               

Appendix G
Cumulative Award Fees Paid, by Performance Requirement, Through September 2007


                                                               Performance                                                                       Award Fees Paid
                                                                                                                                                       Percentage
     Requirement                                Standard                                            Measure                    Category *    Dollars
                                                                                                                                                        of Total
                                                                                                                                                                  Rank

                          Contractor develops a cost structure for developing
                          and operating the prime integration contract; uses the
                          most cost-effective means to operate the prime           Verify costs by audit. Quarterly spot
Cost Control **
                          integration contract; and maintains cost records for     audits.
                                                                                                                                  Cost       81,138       1.0      23
                          verification. Actual costs do not exceed 10% of
                          planned costs in the first contract period.
                          Contractor develops a financial reporting system that    Financial reports approved and               Technical
Financial Reports **
                          complies with standard accounting principles.            implemented.                                Performance
                                                                                                                                             81,138       1.0      23

Monthly Status Review     Corrective action to overcome noted deficiencies in
                                                                                   Followup reviews. Assessments of other
Followups (Timely         achieving program objectives is initiated. At least                                                   Technical
Corrective and            90% of previous quarter’s corrective actions are
                                                                                   program aspects to ensure that additional
                                                                                                                               Performance
                                                                                                                                             77,081       1.0      25
                                                                                   problems have not been created.
Preventative Action) **   initiated by start of following quarter.

Enforcement Technology
                       All Technology Support Branch-authorized changes
Equipment Changes and
                       and modifications are incorporated as specified.
                                                                                   Monthly reviews of database.                   Other      65,757       0.8      26
Modifications

                        Contractor completes transition and takes full
                        responsibility for National Technical Service Center
                                                                             Timely takeover of all current maintenance
Takeover of Maintenance and Field Technicians Maintenance within designated
Contracts **            months after contract award. Develops plan to
                                                                             contracts. Progress review with the                Schedule     64,910       0.8      27
                                                                             contractor management team.
                        improve management and maintenance of the high-
                        technology enforcement equipment.

                          Contractor completes transition within 4 months after    Progress monitored every month. Progress
Monthly Training
Progress **
                          contract award. Develops action plan to improve          review with the contractor management        Schedule     64,910       0.8      27
                          training of equipment operators.                         team.

                          Provided within 1 month of completion to the
Training Certificates     Customs Management Center for students who               Audits of the training database.               Other      41,134       0.5      29
                          completed training courses.

                          Within 6 months of contract award, contractor
Inventory Process                                                                  Quarterly spot checks of the ongoing
Progress **
                          develops an efficient way of tracking the equipment
                                                                                   inventory reveal no errors.
                                                                                                                                Schedule     40,569       0.5      30
                          inventory.



                                                          CBP Award Fees for Enforcement Equipment
                                                                                                                      





                                                        Maintenance and Field Operations Support Contract
                                                                                                                          





                                                                                   Page 32
                                                                                             

Appendix G
Cumulative Award Fees Paid, by Performance Requirement, Through September 2007


                                                                    Performance                                                                    Award Fees Paid
                                                                                                                                                          Percentage
       Requirement                                  Standard                                         Measure                    Category *     Dollars
                                                                                                                                                           of Total
                                                                                                                                                                     Rank

                                                                                                                                 Schedule,
Response to Training           Training coordinators respond to training requests   Audits of training request records and
Requests ***                   within 2 workdays.                                   contacts with ports.
                                                                                                                                 Technical      40,569       0.5     30
                                                                                                                                Performance

                               Established and maintained and includes hard and
Central Training                                                                    Audits comparing lists of what should be
Materials Library ***
                               soft copies of documentation, videos, and training
                                                                                    available to actual.
                                                                                                                                   Other        40,569       0.5     30
                               aides.

                               Contractor initiates discussions with equipment
Contract Assumption                                                                 Contractor’s Contract Assumption Plan is
Plan **
                               manufacturers to ensure uninterrupted service
                                                                                    established and approved.
                                                                                                                                   Other        40,569       0.5     30
                               coverage for equipment.
                         Contractor submits paperwork for new employees
Background Investigation within 10 workdays of employment. Not more than
Paperwork                two submissions returned for corrections during a 60­
                                                                                    Audits of security paperwork submissions.    Schedule       38,909       0.5     34
                         day period.

                               Ongoing program activities are monitored to assess                                                Schedule,
Contractor Follows up,
Actions Complete **
                               status and results of tasks in terms of desired      Followup monthly reviews.                    Technical      38,540       0.5     35
                               characteristics and metrics.                                                                     Performance

Service Delivery
                                                                                    Service delivery quality measurement plan    Technical
Measurement Approved           Comply with the ISO 9000 requirements.
                                                                                    is approved.                                Performance
                                                                                                                                                38,540       0.5     35
**

1% for Merit in Rating Period Six                                                                                                               13,477       0.2     ---
Total                                                                                                                                         8,086,409    100.0     ---
Rounding Adjustment                                                                                                                                (57)
      TOTAL Award Fees Paid Through September 2007                                                                                            8,086,352
*   OIG determination.

** Applicable to first 6 months only.

*** Applicable during second rating period only.


n.a. Not applicable.
                       





Source: OIG analysis of CBP provided data.


                                                              CBP Award Fees for Enforcement Equipment
                                                                                                                     





                                                            Maintenance and Field Operations Support Contract
                                                                                                                         





                                                                                    Page 33
                                                                                              

Appendix H
Major Contributors to This Report



                   Rosalyn G. Millman, Director
                   Frank Parrott, Audit Manager
                   Michael A. Talevi, Auditor-in-Charge
                   Emily Pedersen, Program Analyst




                    CBP Award Fees for Enforcement Equipment 

                  Maintenance and Field Operations Support Contract 


                                       Page 34
Appendix I
Report Distribution


                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       Deputy Chief of Staff
                       General Counsel
                       Executive Secretary
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Policy
                       Assistant Secretary for Public Affairs
                       Assistant Secretary for Legislative Affairs
                       Commissioner, Customs and Border Protection
                       Audit Liaison, Customs and Border Protection
                       Chief Procurement Officer, DHS

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




                        CBP Award Fees for Enforcement Equipment 

                      Maintenance and Field Operations Support Contract 


                                           Page 35 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
